CERTIFICATE OF COMPLIANCE
No. 19-___

State of North Carolina,

Petitioner,

James Harold Courtney, III,

Respondent.

As required by Supreme Court Rule 33.1(h), I certify that the Petition for
Writ of Certiorari contains 4,688 words, excluding the parts of the Petition for Writ
of Certiorari that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.
Executed on December 12, 2019.

aah

 

Caryn Devins Strickland
